                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A11110076                                                                   Page 1 of 1



                An NSF employee 1 hired under the Intergovernmental Personnel Act submitted a Form
         1311, Non-Federal Travel Reimbursement Approval and Report to the National Science
         Foundation Office of General Counsel (OGC), which was rejected by OGC. The employee
         subsequently sought and received reimbursement for the travel from NSF. There were also
         apparent irregularities regarding the employee's Individual Research and Development travel.

                 The matter was referred to the employee's Directorate. The employee was interviewed
         by his Division Director2 and provided adequate explanations regarding the travel and IRD
         Issues.

                   Accordingly, this case is closed.




         2




NSF OIG Form 2 (11102)
